Audit Report

Office of Justice Programs, 
Office of Juvenile Justice and Delinquency Prevention,
Weed and Seed Project Awarded to Southeast Uplift Neighborhood Program, 
Grant Number 2001-WS-QX-0084, Portland, Oregon

Report No. GR-90-05-002


October 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Weed and Seed Project (Weed and Seed) grant, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP) to the Southeast Uplift Neighborhood Program in Portland, Oregon.  The purpose of this grant is   (1) to enrich the quality of life for persons residing in the Weed and Seed area by implementing community-based comprehensive multi-agency strategies to "weed" out violence and drugs and "seed" the area with educational, recreational, social, and economic development, and (2) to link and integrate law enforcement and criminal justice efforts with social services, private sector, and community efforts to increase the impact of existing programs and resources and to identify new programs that enhance the efforts of Weed and Seed.  As of September 22, 2003, Weed and Seed was awarded a total of $750,000.  We tested Weed and Seed's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

Of the $593,452.41 expended as of March 31, 2004, we tested $219,736 in transactions.  Our audit revealed that controls over the accounting process and records related to the grant were adequate.  However, we did find that eight out of the ten Financial Status Reports submitted by the grantee did not accurately reflect the amount claimed as the federal share of the grant.  This item is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in the Appendix.